                                                         IG-00-050




AUDIT
                                    NASA'S USE OF
REPORT                         SMARTPAY PURCHASE CARDS

                                   September 25, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

APC                 Agency Program Coordinator
EAGLS               Electronic Account Government Ledger System
FAR                 Federal Acquisition Regulation
GSA                 General Services Administration
IMPAC               International Merchant Purchase Authorization Card
W                                                                     September 25, 2000


TO:            A/Administrator

FROM:          W/Inspector General

SUBJECT:       INFORMATION: Audit of NASA's Use of SmartPay Purchase Cards
               Report Number IG-00-050


The NASA Office of Inspector General has completed an audit of NASA’s use of SmartPay
purchase cards. Overall, the NASA SmartPay Purchase Card program was effective.
Management had implemented appropriate controls over the majority (more than 95 percent) of
sampled purchases, and the purchases were efficient and cost-effective. We believe that Center
managers must continue their vigilance over purchases, however, because we found a small
number of sampled purchases of various items that did not meet the intent of the Federal
Acquisition Regulation (FAR) and other Federal guidance. (During the audit, my office also
received a Hotline complaint on another five purchases made with a purchase card.) The eight
purchases were for personal items, such as food or holiday decorations, or for other
questionable purposed prohibited by the FAR and Comptroller General guidance.
Consequently, the Agency cannot be assured that the Centers properly used appropriated funds
in these cases.

Background

NASA is participating in the SmartPay Purchase Card program in response to Executive Order
12352, "Federal Procurement Reforms," March 17, 1982, which called for reduced
administrative costs and burdens for both the Government and the private sector. As of July
28, 2000, NASA has 4,055 account holders participating in the purchase card program. In
fiscal year 1999, cardholders completed about 138,000 transactions valued at about $70.5
million.

The General Services Administration (GSA) administers the SmartPay Purchase Card Program.
GSA provides the control framework for the program, including use of the cards and the
approval and payment process. GSA policy addresses the purchase limits and management
approvals required by the program and other controls designed to minimize inappropriate use of
purchase cards.
                                                                                                          2

NASA has implemented controls over the use of SmartPay Purchase Cards. The NASA FAR
Supplement, part 1813, “Simplified Acquisition Procedures,” 1 provides guidance for carrying
out model procedures for using the card. NASA Centers have implemented additional controls
in their local credit card programs. Contracting personnel at each Center are responsible for
program administration, which includes development of internal operating procedures. A
designated agency program coordinator (APC) at each Center is responsible for overall
management of the Center's credit card program. Approving officials for each cardholder serve
as key internal control points as they review individual cardholder purchases. Other controls
include: single purchase limits, monthly purchase limits, reconciliation of monthly invoices,
monitoring and training by APC’s, and supervisory review of credit card statements.

Recommendations

We recommended that the Associate Administrator for Procurement expand NASA guidance
on the use of purchase cards to include more specific examples of prohibited purchases and
approving officials' responsibilities. We also recommended that the Associate Administrator for
Procurement expand the required purchase card training to include additional emphasis on
approving officials' responsibilities in reviewing purchase card transactions for prohibited
purchases and on the use of purchase cards for food and refreshments, including the
combination of retirement and awards functions.

Management's Response ******

Management concurred with the finding and recommendations. The Associate Administrator
for Procurement plans to amend the NASA FAR Supplement to identify the areas to be
addressed in training. Additionally, he plans to require procurement officers to: (1) ensure that
training and guidance on the use of the purchase card include specific examples of prohibited
purchases and (2) continue to emphasize the importance of the role of the approving official in
reviewing purchase card transactions for detecting prohibited purchases in the initial training and
all subsequent refresher training and periodic audits.

The George C. Marshall Space Flight Center (Marshall) has already initiated action in recent
training sessions for approving officials by placing special emphasis on reviewing purchases to
ensure prohibited items are not acquired. In addition, Marshall guidance on the use of purchase
cards has been revised to increase controls over the process and to subject personnel who
misuse their card to disciplinary action.


1
 The NASA FAR Supplement implements FAR, Part 13, “Simplified Acquisition Procedures,” which
prescribes simplified procedures for the acquisition of supplies and services, the aggregate amount of which
does not exceed the simplified acquisition threshold of $100,000. The purpose of these procedures is to
reduce administrative costs and avoid unnecessary burdens for agencies and contractors.
                                                                                                3

The actions taken by management are responsive to the recommendations. We consider both
recommendations to be resolved for reporting purposes and will continue to monitor them until
they have been dispositioned. The actions planned and taken should ensure that NASA as an
organization and individual NASA installations effectively use SmartPay Purchase Cards in
pursuing the NASA mission.


[Original signed by]

Roberta L. Gross

Enclosure
Final Report on Audit of NASA's Use of SmartPay Purchase Cards
       FINAL REPORT
     AUDIT OF NASA'S USE
OF SMARTPAY PURCHASE CARDS
W                                                                         September 25, 2000


TO:            H/Associate Administrator for Procurement

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on NASA's Use of SmartPay Purchase Cards
               Assignment Number A0002200
               Report Number IG-00-050

The subject final report is provided for your information and use. Please refer to the Results in
Brief for the overall audit results. Our evaluation of your responses has been incorporated into
the body of the report. Management comments were responsive to the recommended
corrective actions. For recommendations 1 and 2, we request that you notify us of the actions
taken, including the extent of testing performed to ensure corrective actions are effective.
Those recommendations will remain open.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-3360, Mr. Tony A. Lawson, Program Manager,
at (301) 286-6524, or Mr. Walter K. Curtis, Auditor-in-Charge, at (818) 354-9746. We
appreciate the courtesies extended to the audit staff. The final report distribution is in
Appendix D.


[Original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
G/General Counsel
JM/Acting Director, Management Assessment Division
                        NASA Office of Inspector General
IG-00-050
 A0002200                                                              September 25, 2000

                                  NASA’s Use of
                             SmartPay Purchase Cards


Introduction

NASA is participating in the SmartPay Purchase Card program in response to Executive Order
12352, "Federal Procurement Reforms," March 17, 1982, which called for reduced
administrative costs and burdens for both the Government and the private sector. As of July
28, 2000, NASA has 4,055 account holders participating in the purchase card program. In
fiscal year 1999, cardholders completed about 138,000 transactions at a value of
approximately $70.5 million.

The GSA administers the SmartPay Purchase Card Program. The GSA awarded a contract to
the Bank of America against which agencies write specific task orders. The NASA task order
on this contract was first awarded in November 1998 and currently extends through November
2000, with eight 1-year options. The GSA also provides the control framework for the
program, including use of the cards and the approval and payment process. The GSA policy
addresses the purchase limits and management approvals required by the program and other
controls designed to minimize inappropriate use of purchase cards.

NASA has implemented controls over the use of SmartPay Purchase Cards. The NASA FAR
Supplement, part 1813, “Simplified Acquisition Procedures,” provides guidance for carrying
out model procedures for using the card. NASA Centers have implemented additional controls
in their local credit card programs. Contracting personnel at each Center are responsible for
program administration, which includes development of internal operating procedures. A
designated APC at each Center is responsible for overall management of the Center's credit
card program. Approving officials for each cardholder serve as key internal control points as
they review individual cardholder purchases. Other controls include: single purchase limits,
monthly purchase limits, reconciliation of monthly invoices, monitoring and training by APC’s,
and supervisory review of credit card statements.

The overall audit objective was to evaluate the effectiveness of NASA’s credit card program.
Details on the audit objective, scope, and methodology are in Appendix A.
Results in Brief

Overall, the NASA SmartPay Purchase Card program was effective. Management had
implemented appropriate controls over the majority (more than 95 percent) of sampled
purchases, and the purchases were efficient and cost-effective. Center managers must remain
vigilant over purchases, however, because we found 8 of 234 sampled purchases of various
items that did not meet the intent of the FAR and other Federal guidance. With such purchases,
the proper use of appropriated funds is not assured.

Background

Federal Acquisition Regulation. FAR Part 1.104 states that the FAR applies to all
acquisitions as defined in Part 2 of the FAR, except where expressly excluded.2 FAR, Part
13.003, states that “agencies shall use the Governmentwide commercial purchase card and
electronic purchasing techniques to the maximum extent practicable in conducting simplified
acquisitions.”3 Part 13.201 states that the Governmentwide commercial purchase card shall be
the preferred method to purchase and to pay for micropurchases (that is, purchases less than
$2,500). Part 13.301 states that the Governmentwide commercial purchase card is authorized
for use in making and/or paying for the purchase of supplies, services, or construction. The
card may be used only for purchases that are otherwise authorized by law or regulation.

Comptroller General of the United States. In Ruling B-270199 dated August 6, 1996, the
Comptroller General of the United States stated that, “in general, appropriated funds are not
available to provide food to government employees at their official duty stations, unless specific
authority exists.” Two exceptions to this ruling allow food to be provided for selected training
sessions and meetings. Food may be provided at Government expense to employees attending
an authorized training program when the provision of that food is necessary to achieve the
objectives of the training program or for the employees to obtain the full benefit of the training.
According to the Comptroller General’s ruling:

                  A threshold test for providing food for employees at meetings and
                  conferences is whether the food in question was provided at a formal
                  conference or meeting involving topical matters of general interest to
                  governmental and nongovernmental participants, rather than at a
                  routine business meeting primarily involving day-to-day agency
                  operations and concerns.


Office of Federal Procurement Policy. The Administrator of the Office of Federal
Procurement Policy recommended, in a March 14, 1997 memorandum, that agency

2
  FAR Part 2.101 defines “acquisition” as acquiring supplies or services (including construction) by and for
the use of the Federal Government by contract with appropriated funds.
3
  Simplified acquisitions are the acquisitions of supplies and services, including construction, research and
development, and commercial items that do not exceed the simplified acquisition threshold of $100,000.


                                                      2
procurement executives provide the option of using the purchase card and other electronic
payment methods appropriate for orders over the micropurchase threshold. He also asked that
the procurement executives work within their respective agencies to make program personnel
with access to purchase cards aware of the significant price savings and time savings available
by buying products through electronic catalogs rather than retail outlets.

General Services Administration. GSA provides management guidance to NASA and other
agencies participating in the SmartPay Purchase Card program. The guidance addresses
management controls over the card program including use of the cards and the approval and
payment process. The guidance also provides information on the savings available by using the
purchase card to effect more efficient procurement practices. A March 1999 report by the
Office of Intergovernmental Solutions, a part of the Office of Government Policy within GSA,
summarizes the required management controls in the purchase card program.

Controls over Use of Purchase Cards

Finding. Of 234 sampled purchases that we reviewed, 8 were for personal items, such as food
or Christmas decorations, or for other questionable purposes that are prohibited by the FAR,
the NASA FAR Supplement, and the Comptroller General’s guidance. The purchases
occurred because local guidelines did not specifically prohibit such items, local managers did not
adequately review planned or actual uses of the purchase cards, and training may not have
adequately addressed managers’ review and approval responsibilities. As a result, the Agency
cannot be assured that the Centers properly used appropriated funds in these cases.

NASA Guidance

NASA FAR Supplement, Part 1813.301, provides the following guidance regarding the use of
the Governmentwide commercial purchase card:

                  The procurement officer shall designate individual cardholders in
                  accordance with Center procedures, subject to the following limitations:
                  (i) Personnel other than contracting officers may be designated as
                  cardholders for micro-purchases and for individual orders under
                  [blanket purchase agreements]4 up to $5,000, provided they complete
                  training adequate to ensure appropriate use of the purchase card.
                  (ii) The procurement officer's designation shall be in writing and shall
                  specify the scope of the cardholder's authority.
                  (iii) The Center shall establish and maintain administrative procedures
                  and management controls required by the GSA. Purchases made with
                  the Governmentwide commercial purchase card shall comply with the
                  instructions and procedures issued by GSA as well as applicable parts
                  of the FAR and NASA FAR Supplement.


4
 The FAR, Part 13.303-1, defines a blanket purchase agreement as a simplified method of filling anticipated
repetitive needs for supplies or services by establishing “charge accounts” with qualified sources of
supply.


                                                     3
This section further states that the approving official for purchases made by the purchase card is
the individual who reviews and approves a cardholder’s monthly statement of purchases. The
approving official shall be the cardholder’s immediate or higher level supervisor; in no case shall
cardholders approve their own statement of purchases. Unless Center procedures otherwise
provide for their designation, the procurement officer shall designate approving officials.

As stated earlier, individual cardholders must receive adequate training to ensure appropriate
use of the purchase cards. Although the Office of Procurement makes training materials
available through its Internet library, each Center is responsible for developing a training
program. The NASA APC stated that NASA does not have a standard Agency-wide training
program on purchase cards use.

Use of Purchase Cards

Generally, cardholders are following NASA guidance and are making efficient use of the
SmartPay Purchase Cards. However, we found cases in which cardholders did not comply
with the NASA FAR Supplement and/or the Center guidance or made otherwise questionable
purchases, as illustrated below:

•   One purchase of 150 mouse pads totaling $1,035. The invoice shows that the vendor had
    been requested to deliver the mouse pads to a house located in a residential neighborhood
    off the Center. The local approving official did not adequately review the documentation
    associated with this purchase.
•   Three purchases of Christmas decorations totaling $548. The cardholder believed these
    were permissible purchases because they were not specifically prohibited by local guidance.
•   Two purchases of flowers totaling $362 for a Christmas party and retirement reception.
    The cardholder believed these were permissible purchases because they were for an office
    function and were not specifically prohibited by local guidance.
•   One purchase of “moon pies” (a snack item) totaling $115 for participants in a “fun run”
    during a Center’s safety and total health day. In requesting and approving this transaction,
    local management believed this purchase of food was permissible because the activity was
    associated with a training-type activity. This expenditure does not meet the Comptroller
    General’s allowable exceptions cited in Ruling B-270199 for either training sessions or
    formal meetings and conferences.
•   One purchase of a registration package totaling $5,000 for a political organization’s annual
    convention. Although the approving official believed this transaction was permitted as part
    of NASA’s community outreach efforts, the official may not have
    adequately evaluated the specific, potentially political, purposes of the organization to which
    the payment was made. Our discussion with management and the supporting
    documentation did not identify evidence of a legal review of this transaction.




                                                 4
Control Weaknesses. Our review of these transactions identified two primary reasons for the
questionable purchases:

•   First, Center approving officials did not adequately review and/or question the proposed or
    actual transactions that did not comply with existing NASA and local guidance. Had the
    approving officials conducted an adequate review of the transaction documentation and
    criteria, the officials would have identified the inappropriateness of purchases such as
    Christmas decorations.

•   Second, although APC’s at each Center train cardholders and approving officials before
    issuing purchase cards, the individuals we interviewed were not sufficiently knowledgeable
    about appropriate and inappropriate uses of the purchase cards. This pertains especially to
    the purchase of food items, which are permissible for certain functions and not permissible
    for others. Some Centers clearly prohibited all food purchases, while other Centers
    provided guidance on the use of purchase cards for food. Further, cardholders and/or
    managers may be combining functions such as awards ceremonies with retirement
    celebrations in an effort to justify the purchase of food for the retirement functions. For
    example, at one Center a cardholder purchased a cake that included an inscription
    congratulating awardees and offering best wishes to a retiree. The cardholder and the
    approving official relied on generic guidance provided by the Center’s counsel to justify the
    purchase of the cake under local guidelines because it was in conjunction with an awards
    ceremony. The Comptroller General has stated that, generally, retirement functions are not
    to be considered award ceremonies and, therefore, the Agency should not use appropriated
    funds to purchase refreshments for retirement functions. Our concern is that without
    clarifying guidance cardholders may expand the purchase of food for combined functions.

Effect of Inappropriate Purchases. As a result of the questionable purchases, the Agency
cannot be assured that the Centers properly used appropriated funds. While NASA has done a
good job overall in ensuring that SmartPay Purchase Cards are used as intended, vigilance is
essential to maintain a low rate of questionable transactions in the future.


Recommendations, Management’s Response, and Evaluation of
Response

The NASA Associate Administrator for Procurement should:

    1.   Expand NASA guidance on the use of purchase cards to include more specific
         examples of prohibited purchases and approving officials’ responsibilities.
    2.   Expand the NASA FAR Supplement required training on the use of a purchase
         card to include additional emphasis on:




                                                5
        •   approving officials’ responsibilities in reviewing purchase card transactions
            for prohibited transactions, and
        •   the use of purchase cards for food and refreshments, including the
            combination of retirement and awards functions.


Management's Response. Concur. Regarding both recommendations, NASA management
stated the Associate Administrator for Procurement plans to amend the NASA FAR
Supplement to identify the areas to be addressed in training and to require Procurement Officers
to:
• ensure that training and guidance on the use of the purchase card include specific examples
     of prohibited purchases and
• continue to emphasize the importance of the role of the approving official in reviewing
     purchase card transactions for detecting prohibited purchases in the initial training and all
     subsequent refresher training and periodic audits.

The complete text of management’s comments is in Appendix C.


Evaluation of Management's Response. The actions planned by management are
responsive to both recommendations. We consider Recommendations 1 and 2 resolved but
undispositioned and open until the agreed-to actions are completed.




                                                6
               Appendix A. Objectives, Scope, and Methodology

Objectives

The overall audit objective was to evaluate the effectiveness of NASA’s credit card program.
The specific objectives were to determine whether:

•   NASA has implemented the appropriate controls over the use of SmartPay Purchase Cards
    and
•   SmartPay Purchase Cards are being used efficiently and cost-effectively.

Scope and Methodology

Our review of purchase card transactions covered the period October 1999 through January
2000, with expanded coverage, when necessary, to analyze potential problems. To establish
the audit universe, we contacted the Bank of America and received on-line access to selected
segments of the Bank’s Electronic Account Government Ledger System (EAGLS). EAGLS is
the Bank’s database containing all transactions related to SmartPay Purchase Cards.

From the EAGLS database, we determined the universe of purchase card activity for the period
of our review. We analyzed the universe for purchasing patterns5 or categories6 that might be
questionable. From this analysis, we randomly selected transactions for detailed review during
the initial phase of the work at NASA Headquarters (Headquarters), John H. Glenn Research
Center at Lewis Field (Glenn), Goddard Space Flight Center (Goddard), John F. Kennedy
Space Center (Kennedy), and Marshall. Because of issues developed during the initial field
work, we expanded the scope to include work at Lyndon B. Johnson Space Center (Johnson)
and Langley Research Center (Langley). The extent of work at each location is summarized in
the following table.




5
  Examples of questionable purchasing patterns include weekend and holiday purchases, multiple purchases
from the same vendor on the same day, and purchases from vendors not located within a reasonable
proximity to the cardholder.
6
  Examples of questionable categories include flower shops, political organizations, grocery stores, toy
stores, and department stores.


                                                   7
Appendix A

                              Overview of Purchase Card Transactions

                                 Total Charges       Total Transactions
                                    During                 During         Total Sampled       Questionable
           Location              Sample Period         Sample Period      Transactions 1      Transactions 2


Initial Sample

NASA Headquarters                  $     737,560                  1,094                 14                    1
Glenn                                    477,898                  1,329                 18                    0
Goddard                                  490,618                  1,057                 20                    0
Kennedy                                  287,988                    261                 30                    0
Marshall                                 387,786                    647                 30                  63,4

           Subtotals                $ 2,381,850                   4,388               112                     7

Expanded Sample

Johnson                             $     623,210                 1,304                 72                    1
Langley                                 1,865,513                 4,840                 50                    0

           Subtotals                $ 2,488,723                   6,144               122                     1

           Totals                   $ 4,870,573                  10,532               234                     8
1
    The total value of the sampled transactions was $148,368.
2
    The total value of the questioned transactions was $7,060.
3
  During the audit, the NASA Office of Inspector General received a Hotline complaint regarding the
possible misuse of the NASA SmartPay Purchase Card for five purchases of office furniture and furnishings
totaling $3,638 at Marshall. The five purchases are not included in the six questionable transactions.
4
  One cardholder made all six questionable purchases. A Marshall management review determined that the
cardholder was misusing the purchase card, and management cancelled the individual's card.

During both the initial and expanded samples, we supplemented the random selections with
judgmentally selected transactions when we determined a need to review particular transactions.
The selected transactions were representative of the NASA-wide SmartPay Purchase Card
program current at the time of the audit. We made no projections based on our sample results.

We relied on computer-generated reports from the EAGLS to assess the accuracy and
reliability of recorded purchase card transactions. We did not evaluate the applicable general
and administrative controls for the EAGLS to determine the reliability of its computer-generated
data because it was outside the scope of this audit.


                                                       8
                                                                                            Appendix A

Management Controls Reviewed

We reviewed management controls related to procurements using the SmartPay Purchase
Cards as described in the FAR Part 13, NASA FAR Supplement Part 1813, GSA guidance,
and the credit card guidance from the NASA Centers selected for audit. Cardholders’ records
were specifically reviewed to evaluate the following controls:

        •    purchases appeared reasonable in terms of types of goods and services acquired,
        •    cardholders were observing the single purchase limit,7
        •    and approving officials were certifying the purchases in accordance with Center
             guidance.

Audit Field Work

We conducted our field work at Headquarters, Goddard, Glenn, Johnson, Kennedy, Langley,
and Marshall from January through August 2000. We performed the audit in accordance with
generally accepted Government auditing standards.




7
  The single purchase limit is generally $2,500 for cardholders whose job classifications are not GS-1102,
contracting series, or GS-1105, purchasing series, and do not have contracting warrants. For cardholders
having GS-1102 and GS-1105 classifications, the single purchase limit may be as much as $100,000, although
it is usually in the range of $10,000 to $25,000.


                                                    9
                   Appendix B. Summary of Prior Coverage

The NASA Office of Inspector General has issued reports relating to the use of purchase cards.
The reports are summarized below. (Copies of the reports are available at
www.hq.nasa.gov/office/oig/hq/issueaudits.html.)


“NASA's International Merchant Purchase Authorization Card Program,” Report
Number IG-98-011, May 4, 1998. Purchase controls were weak at the 10 locations audited.
Specifically, program coordinators did not conduct periodic reviews of purchases, maintain
adequate records,or use available reports to monitor the program or establish adequate training
guidelines. These weaknesses contributed to $467,000 of sampled credit card transactions
involving improper purchases from August through October 1996. Also, credit card payments
at seven locations were made without the required certifications and/or verification of
authenticity. As a result, there was no assurance that (1) monthly statements were accurate, (2)
payments made for goods and services were actually received, and (3) the approving officials
were authorized to certify the statements. Management concurred with our recommendation
that the NASA Program Coordinator define specific duties and responsibilities of the Program
Coordinators at each Center. Management also concurred with our recommendation that the
Associate Administrator for Procurement work with financial management personnel and
establish internal control procedures to ensure the authenticity of certifications.

“Use of Credit Card by Someone Other Than the Cardholder,” Report Number IG-
98-003, December 5, 1997. During our review of the NASA International Merchant
Purchase Authorization Card (IMPAC) program, we found 16 cases at 4 NASA locations
where 11 cardholders allowed other employees and contractor personnel to use their IMPAC
card or account number for purchases of supplies. Credit card procedures prohibit the
cardholder to allow anyone else to use his/her card or account number. NASA management
agreed that action was required and proposed to remind and emphasize in training the
prohibition against allowing anyone else to use the card.

“Credit Card Split Purchases,” Report Number M-IG-97-014, September 11, 1997.
This report addresses split purchases that were structured in that manner to allow the
cardholder to acquire a large quantity of goods or services and yet remain within the limit for
single purchases. The limit for nonprocurement personnel is generally $2,500 for a single
purchase, and for procurement officers is either $10,000 or $25,000 per single purchase. We
found violations in both categories of employees. NASA management agreed with our
suggestion to take appropriate action to improve the cardholders’ and approving officials’
compliance with the intent of the credit card program and to minimize future occurrences of split
purchases.

“NASA Procurement Initiatives--Credit Card Program,” Report Number IG-97-007,
November 22, 1996. One directorate at Kennedy used NASA credit cards to purchase 80



                                               10
computer systems over a 3-month period. The 80 systems totaled $167,925, but were
processed as individual procurements of under $2,500 each in order to use the
                                                                              Appendix B

credit card. The splitting of purchases in this manner is expressly forbidden by the FAR, NASA
FAR Supplement, and the Kennedy "Credit Card Users Guide." NASA management
concurred with our recommendation that the Associate Administrator for Procurement issue a
letter to Kennedy clarifying the definition of single purchases and reemphasizing that
requirements are not to be split. The Associate Administrator for Procurement also stated that
a second letter would be sent to the other Associate Administrators and other Center Directors
requiring that the same emphasis be added to the training for all new cardholders and approving
officials.




                                              11
Appendix C. Management's Response




               12
     Appendix C




13
Appendix C




             14
                        Appendix D. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                             15
Appendix D

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             16
               NASA Assistant Inspector General for Auditing
                              Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant
Inspector General for Auditing; NASA Headquarters, Code W, Washington, DC
20546-0001.


Report Title: NASA's Use of Smart Pay Purchase Cards

Report Number: _____________________ Report Date: ___________________

Circle the appropriate rating for the following statements:

                                                Strongl                              Strongl
                                                   y      Agree   Neutra   Disagre   y         N/A
                                                                    l         e      Disagre
                                                Agree                                   e
1. The report was clear, readable, and             5       4        3         2         1      N/A

   logically organized.
2. The report was concise and to the point.        5       4        3         2         1      N/A

3. We effectively communicated the audit           5       4        3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5       4        3         2         1      N/A

   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                   Media
       NASA Employee                         Public Interest
       Private Citizen                       Other: __________________________
       Government: _______ Federal: _________ State: ________ Local: ___________


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ___________________________
Telephone: _______________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Lorne A. Dear, Program Director, Procurement Audits

Tony A. Lawson, Program Manager, Procurement Audits

Walter K. Curtis, Auditor-in-Charge

Amy E. Larkin, Auditor

Mark J. Zielinski, Auditor

Nancy C. Cipolla, Report Process Manager

Debra A. Schuerger, Program Assistant

Christina Head, Program Assistant
